Case: 19-50450

Document: 00515223460

Page: 1

Date Filed: 12/04/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50450
Summary Calendar

December 4, 2019

D.C. Docket No. 5:17-CV-1280

Lyle W. Cayce
Clerk

FILED

LISA L. WATSON,
Plaintiff - Appellant
v.

MARK ESPER, Secretary, Department of the Army,
Defendant - Appellee
Appeal from the United States District Court for the
Western District of Texas
Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.
IT IS FURTHER ORDERED that appellant pay to appellee the costs on
appeal to be taxed by the Clerk of this Court.

Case: 19-50450

Document: 00515223446

Page: 1

Date Filed: 12/04/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50450
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
December 4, 2019

LISA L. WATSON,

Lyle W. Cayce
Clerk

Plaintiff - Appellant
v.

MARK ESPER, Secretary, Department of the Army,
Defendant - Appellee

Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:17-CV-01280

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM:*
Lisa Watson, proceeding pro se, filed suit against Mark Esper, Secretary
of the Department of the Army, in his official capacity, claiming race
discrimination, retaliation, and hostile work environment. The district court
granted summary judgment to the defendant on all claims. We AFFIRM.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 19-50450

Document: 00515223446

Page: 2

Date Filed: 12/04/2019

No. 19-50450
I. Background
Lisa Watson, an African American, began her term appointment as a
Medical Records Administrative Specialist for the Army in June 2012, her term
to end on June 17, 2015. She struggled in her job from the beginning. After
failing an initial quality assurance review, she was given ninety days to earn
a passing score. She never did.1 The Army then placed her on a performance
improvement plan (“PIP”), but even after weekly meetings with supervisors,
one-on-one trainings with audit specialists, and practice audits, Watson’s work
product did not pass muster. Citing her subpar performance, the defendant
terminated Watson on July 19, 2013.
While employed and after her termination, Watson applied to three
permanent positions in the Army, but each application was rejected. On
January 10, 2013, the Army also denied Watson’s request to attend
professional training, determining she had to first meet her productivity goals.
That same day, Watson contacted the Equal Employment Opportunity
Commission (“EEOC”) to complain of harassment and a hostile work
environment. She filed a formal complaint two months later.
Watson eventually filed the instant action, alleging employment
discrimination, retaliation, and harassment in violation of Title VII of the Civil
Rights Act.2 The district court dismissed Watson’s claims on summary
judgment. She now appeals. She also filed a motion for immediate release of
back pay with interest.

1 Watson underwent three performance reviews but never achieved the required
accuracy standard of 93% on her assessments. She fared no better in her “live” audit; amongst
the litany of errors committed, she incorrectly copy-and-pasted a generic error message 140
times.
2 42 U.S.C. § 2000e.

2

Case: 19-50450

Document: 00515223446

Page: 3

Date Filed: 12/04/2019

No. 19-50450
II. Analysis
A. Title VII Claims
We review a district court’s grant of summary judgment de novo.3
Summary judgment is appropriate when there exists no genuine dispute of
material fact, and the moving party is entitled to judgment as a matter of law.4
1. Discrimination Claim
Title VII prohibits employment discrimination against any individual on
the basis of race.5 A plaintiff may establish a prima facie case of discrimination
by presenting direct evidence of discrimination or by relying on circumstantial
evidence using the McDonnell Douglas burden-shifting analysis.6 Under this
analysis, the plaintiff must show: “(1) she is a member of a protected class, (2)
she was qualified for her position, (3) she suffered an adverse employment
action, and (4) others similarly situated were more favorably treated.”7 Once
that is established, the employer has the burden of establishing a legitimate,
nondiscriminatory reason for the adverse employment action.8 The burden
then again shifts back to the employee, who must produce “substantial
evidence” that the reason offered was in fact pretext for discrimination.9
The district court based its summary judgment dismissal of Watson’s
claims on her inability to establish a prima facie case of discrimination and her
failure to rebut her employer’s nondiscriminatory reason for its action. On
appeal, Watson argues she has shown a genuine issue of material fact that she
was the subject of discrimination, citing to a long list of incidents. Watson

3 Lamb v. Ashford Place Apartments L.L.C., 914 F.3d 940, 943 (5th Cir. 2019).
4 Fed. R. Civ. P. 56(a).
5 42 U.S.C.A. § 2000e-2(a)(l).
6 Wittmer v. Phillips 66 Co., 915 F.3d 328, 332 (5th Cir. 2019).
7 Willis u. Coca Cola Enterprises, Inc., 445 F.3d 413, 420 (5th Cir. 2006) (quoting
Rutherford v. Harris Cty., Tex., 197 F.3d 173, 184 (5th Cir. 1999)).
8 Roberson v. Alltel Info. Servs., 373 F.3d 647, 651 (5th Cir. 2004).
9 Id.; Nasti v. CIBA Specialty Chemicals Corp., 492 F.3d 589, 593 (5th Cir. 2007).
3

Case: 19-50450

Document: 00515223446

Page: 4

Date Filed: 12/04/2019

No. 19-50450
challenges (1) her termination and (2) the Army’s rejection of her various job
applications as discriminatory adverse employment actions.10
Even if this court were to accept Watson’s assertions that she has
established a prima facie case of discrimination, she still fails to rebut the
Army’s reasons as pretextual. The Army made clear to Watson that her
performance was subpar, and it offered her ample opportunity to meet its
required thresholds. Yet she repeatedly failed to meet preestablished accuracy
standards, as evidenced by her assessments and performance on her PIP. Her
shortcomings provide a nondiscriminatory explanation as to both the Army’s
decision to terminate her employment and its decision to hire other candidates
for the various positions to which she applied. Because Watson offers no
evidence to rebut the Army’s reasons, summary judgment is appropriate.11
2. Retaliation Claim
Watson next argues that she established a prima facie case of retaliation.
She contends the training she underwent, coupled with her rejected job
applications, constitutes retaliation. Her claim fails as a matter of law.
Title VII forbids employers from retaliating against employees who
report workplace discrimination. The elements of a prima facie retaliation
claim are: (1) the plaintiff engaged in protected activity, (2) the employer knew
about the protected activity, and (3) the employer retaliated against the
employee because of the protected activity.12 The same McDonnell Douglas
burden-shifting framework then applies.13
Once again, even if this court were to accept that Watson has established
a prima facie case of retaliation, the defendant has provided a legitimate, non-

10 McCoy v. City of Shreveport, 492 F.3d 551, 559 (5th Cir. 2007).
11 Watson admits in her brief that the Army explained to her she was terminated
“because [she] failed the PIP” without explaining how the reason was pretextual.
12 Garcia v. Prof’l Contract Servs., Inc., 938 F.3d 236, 241 (5th Cir. 2019).
13 Id.
4

Case: 19-50450

Document: 00515223446

Page: 5

Date Filed: 12/04/2019

No. 19-50450
retaliatory basis for its behavior. Watson has not shown that the Army fired
her for reasons other than her subpar work performance. ‘“[Cjonclusory
allegations, speculation, and unsubstantiated assertions are inadequate to
satisfy’ the nonmovant’s burden in a motion for summary judgment.”14 A
reasonable factfinder could not conclude that she would not have been fired
and passed over for positions but for her decision to engage in activity protected
by Title VII.
3. Harassment Claim
Under Title VII, to establish a claim of hostile work environment,
Watson must show (1) she belongs to a protected group, (2) she was subjected
to unwelcome harassment, (3) the harassment was based on race, (4) the
harassment affected a term, condition, or privilege of employment, and (5) the
Army knew or should have known of the harassment and failed to take prompt
remedial action.15 To survive summary judgment, Watson must show the
alleged harassment was “sufficiently severe or pervasive to alter the conditions
of the victim’s employment and create an abusive working environment. ” 16
No one disputes that Watson, as an African American, belonged to a
protected group. Yet she fails to show she was subjected to unwelcome
harassment, or that the alleged harassment was based on race. While Watson
points to several incidents that she believes establish harassment, she fails to
show how these incidents—such as not being able to attend a training and
being placed on a PIP—were tied to her race. Furthermore, these incidents are
neither sufficiently severe nor pervasive to amount to an abusive working

14 Ramsey v. Henderson, 286 F.3d 264, 269 (5th Cir. 2002) (quoting Douglass v. United
Services Auto. Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en banc)).
15 Hernandez v. Yellow Transp., Inc., 670 F.3d 644, 651 (5th Cir. 2012).
16 Id. (internal citation and quotation marks omitted).

5

Case: 19-50450

Document: 00515223446

Page: 6

Date Filed: 12/04/2019

No. 19-50450
environment.17

For

the

foregoing reasons,

summary judgment was

appropriate.
B. Motion to Reconsider
Lastly, Watson argues the district court erred in denying her motion to
reconsider. “[W]hen the district court denies a motion to reconsider a grant of
summary judgment, but, in doing so, considers any materials attached thereto
and still grants summary judgment, our review is de novo, as those materials
become part of the summary judgment record.”18 Watson argues the district
court improperly excluded recordings, which validate her claims. These
recordings, however, do not support Watson. If anything, the tapes provide
further evidence that the Army’s reasons for her termination were not
pretextual. The district court properly rejected Watson’s motion to reconsider.
III. Conclusion
For these reasons, the judgment of the district court is AFFIRMED.
Watson’s motions filed on October 1, 2019 are DENIED.

17 See Ramsey, 286 F.3d at 269 (5th Cir. 2002) (finding various “vague assertions of
racial animus” insufficient absent more concrete, specific incidents).
18 McClendon v. United States, 892 F.3d 775, 781 (5th Cir. 2018).

6

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 1 of 21

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
LISA L. WATSON,
Plaintiff,
vs.
MARK ESPER, SECRETARY,
DEPARTMENT OF THE ARMY;
Defendant.

§
§
§
§
§
§
§
§
§
§

CIVIL NO.
SA-17-CV-1280-OLG

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
To the Honorable Chief United States District Judge Orlando L. Garcia:
This Report and Recommendation concerns Defendant’s Motion to Dismiss [#10], which
the Court has converted into a Motion for Summary Judgment due to the large number of
exhibits and evidence attached to Defendant’s motion and Plaintiffs response. See Fed. R. Civ.
P. 12(d). In the Court’s Order informing the parties of this procedural decision [#20], the Court
gave both parties the opportunity to supplement the record as to any additional evidence they
would like considered.

Accordingly, the Court has considered the following responses,

supplemental briefing, and evidence in issuing this recommendation:

Plaintiffs Pro Se

Response to Defendant’s Motion to Dismiss [#11], Plaintiffs Pro Se Motion for Acceptance of
359 Documents Pertaining to Lisa Watson’s Case [#13], Defendant’s Reply in Support of
Motion to Dismiss [#14], Plaintiffs Pro Se Motion for Admission of Evidence Confirming
Additional Discovery is Not Needed [#18], Defendant’s Supplementary Motion for Summary
Judgment Briefing [#21], and Plaintiffs Response to Defendant’s Supplementary Briefing [#22],
All pretrial matters in this case have been referred to the undersigned for disposition
pursuant to Western District of Texas Local Rule CV-72 and Appendix C [#12], and the
1

Case 5:17-cv-01280-OLG

Document 26 Filed 02/26/19 Page 2 of 21

undersigned has authority to enter a recommendation as to Defendant’s Motion for Summary
Judgment pursuant to 28 U.S.C. § 636(b)(1)(B).

For the reasons set forth below, it is

recommended that Defendant’s Motion to Dismiss, which has been converted into a Motion for
Summary Judgment [#10], be GRANTED.
I. Summary Judgment Standard
Summary judgment is appropriate under Rule 56 of the Federal Rules of Civil Procedure
only “if the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any, show that there is no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of law.” Celotex Corp. v. Catrett, All U.S.
317, 322 (1986); see also Fed. R. Civ. P. 56(c). A dispute is genuine only if the evidence is such
that a reasonable jury could return a verdict for the nonmoving party. Anderson v. Liberty
Lobby, Inc., All U.S. 242, 248 (1986).
The party moving for summary judgment bears the initial burden of “informing the
district court of the basis for its motion, and identifying those portions of [the record] which it
believes demonstrate the absence of a genuine issue of material fact.” Celotex Corp., All U.S. at
323. Once the movant carries its burden, the burden shifts to the nonmoving party to establish
the existence of a genuine issue for trial. Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986); Wise v. E.I. Dupont de Nemours & Co., 58 F.3d 193, 195 (5th
Cir. 1995). The non-movant must respond to the motion by setting forth particular facts
indicating that there is a genuine issue for trial. Miss. River Basin Alliance v. Westphal, 230 F.3d
170, 174 (5th Cir. 2000). The parties may satisfy their respective burdens by tendering
depositions, affidavits, and other competent evidence. Topalian v. Ehrman, 954 F.2d 1125, 1131

2

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 3 of 21

(5th Cir. 1992). The Court will view the summary judgment evidence in the light most favorable
to the non-movant. Rosado v. Deters, 5 F.3d 119, 123 (5th Cir. 1993).
“After the non-movant has been given the opportunity to raise a genuine factual issue, if
no reasonable juror could find for the non-movant, summary judgment will be granted.”
Westphal, 230 F.3d at 174. Although courts afford liberal construction to the pleadings of pro se
litigants, individuals proceeding without counsel still must adhere to the procedural requirements
of the Federal Rules of Civil Procedure. McNeil v. United States, 508 U.S. 106, 113 (1993);
Grant v. Cuellar, 59 F.3d 523, 524 (5th Cir. 1995). This includes the evidentiary rules for
summary judgment. Gordon v. Watson, 622 F.2d 120, 123 (5th Cir. 1980) (“Although pro se
litigants are not held to the same standards of compliance with formal or technical pleading rules
applied to attorneys, we have never allowed such litigants to oppose summary judgments by the
use of unsworn materials.”) (footnote omitted).
II. Background and Summary Judgment Record
This is an employment discrimination action arising under Title VII of the Civil Rights
Act of 1964 as amended (“Title VII”), 42 U.S.C. § 2000e, et seq. Plaintiff Lisa Watson, an
African-American female, filed this action, proceeding pro se, against her former employer, the
Department of the Army (“Defendant”), alleging that Defendant failed to select her for several
permanent auditor positions, unjustifiably placed her on a Performance Improvement Plan,
subjected her to a hostile work environment, and ultimately terminated her employment, due to
her race and national origin (non-Hispanic) or in retaliation for her engagement in activity
protected by Title VII. (Compl. [#1] at Iff 7-8.)

3

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 4 of 21

The summary-judgment record1 in this case establishes the following facts pertinent to
Watson’s claims. At the time giving rise to the events in this suit, Watson worked as a GS-9
Medical Records Administrative Specialist within the Department of the Army’s Patient
Administration System and Biostatics Activity (PASBA) at Fort Sam Houston, Texas. (Report
of Investigation (“ROI”) [#10-2] at 5.) Watson was hired on July 17, 2012 pursuant to a term
appointment that was not to extend beyond June 17, 2015. (ROI [#10-2] at 5; Notice of Term
Employment [#10-2] at 94.)

In this position, Watson was responsible for planning and

performing audits of outpatient/inpatient medical coding processes throughout PASBA, as well
as assisting personnel with the MEDCOM performing documentation or coding functions and
serving as a coding/documentation consultant on staff assistant teams. (ROI [#10-2] at 5.)
In October 2012, shortly after Watson began her employment, she received her first
performance counseling and a Senior System Civilian Evaluation Report that outlined the
objectives and performance standards expected for her position. (ROI [#10-2] at 6; Oct. 2012
Counseling [#10-3] at 25; Senior System Civilian Evaluation Rep. [#10-3] at 12.)

The

counseling document indicated that based on initial coding results from Quality Assurance
(“QA”) Watson’s performance would be rated as “Fails” had she been under performance
standards during her first few months of employment. (ROI [#10-2] at 6.) The counseling
documented an intent to develop a focused plan with Watson to help her achieve success on QA
objectives. (Id.) Watson received additional performance counseling in November 2012 and
December 2012, again indicating her productivity was “unacceptable” to date and would be rated
1 The record contains submissions by Watson, such as unsworn statements and letters,
that are not competent summary judgment evidence. See Gordon, 622 F.2d at 123. Regardless
of whether these submissions are proper summary judgment evidence, the undersigned has
reviewed the information they contain, and even if the information contained therein had been
submitted as competent summary judgment evidence, that information would not have changed
the undersigned’s conclusion or recommendation.
4

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 5 of 21

as “FAIL” if rated at the end of the performance period.

(ROI [#10-2] at 6; Nov. 2012

Counseling [#10-2] at 64; Dec. 2012 Counseling [#10-2] at 72.) The counseling documents also
informed Watson that she “must make substantial improvement in productivity in order to meet
performance standards.” (Nov. 2012 Counseling [#10-2] at 64; Dec. 2012 Counseling [#10-2] at
72.)

During this same time period, Watson applied for two permanent Medical Records
Administrative Specialist positions at HQ MEDCOM. (ROI [#10-2] at 5.) In early January
2013, Watson found out she was not selected for either position. (Id.) Shortly thereafter, on
January 10, 2013, Watson made initial contact with the Equal Employment Opportunity (EEO)
office at Fort Sam Houston. (Mem. re: Compl. [#10-2] at 242.) At her January 16, 2013 initial
interview with an EEO officer, Watson complained of a hostile work environment and
harassment based on her race and national origin. (Id.) That same day, Watson was advised of
her rights and responsibilities to pursue her Equal Employment Opportunity Complaint. (EEO
Communication [#10-2] at 233—40.)
In the months that followed, Watson continued to receive additional counseling regarding
her performance.

(ROI [#10-2] at 6; Feb. 2013 Counseling [#10-2] at 494; Mar. 2013

Counseling [#10-3] at 1.) These forms documented that Watson’s productivity would still be
rated as “FAIL” if reviewed at the end of the performance period and warned Watson that the
recommendation of a formal Performance Improvement Plan (“PIP”) was the next step if her
performance did not improve. (Feb. 2013 Counseling [#10-2] at 494; March 2013 Counseling
[#10-3] at 1.) The counseling forms also informed Watson of her reassignment of duties to a
different audit, which Watson refers to repeatedly in her filings as a “dead audit,” to afford her
the opportunity to improve her productivity. (Id.)

5

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 6 of 21

In early March 2013, Watson received notice from an Equal Opportunity Specialist of her
right to file a formal complaint of discrimination, and Watson did so on March 19, 2013. (Notice
[#10-2] at 23-24; EEO Compl. [#10-2] at 20-21.) Watson’s complaint alleged she had been
subjected to a hostile work environment based on race, color, and reprisal. (EEO Compl. [#10-2]
at 20-21.) Approximately one week later, on March 27, 2013, Watson was placed on a PIP by
her supervisor Minerva Leal and advised that she had 45 days to raise her performance to a
successful level. (ROI [#10-2] at 6; PIP [#10-3] at 230-41.) The primary goals set forth in the
PIP were to increase audit productivity and accuracy. (PIP Activity [#10-6] at 369.) A “Weekly
Follow-Up Discussion Document” dated April 12, 2013 documents that Watson had thus far
failed to improve her productivity and accuracy as outlined in her PIP. (Apr. 2013 Follow-Up
[#10-6] at 344.)
On May 8, 2013, Watson received a communication from an EEO officer that part of her
complaint was being dismissed for failure to state a claim and the remainder of her complaint
would be formally investigated. (Mem. Re: Compl. [#10-2] at 251.) Watson thereafter amended
her complaint to include complaints regarding the allegedly unwarranted PIP. (Amendment
[#10-2] at 254.)
On June 3, 2013, Watson received a PIP Summation and Recommendation from Ms. Leal
summarizing Defendant’s efforts to help Watson raise her performance to a successful level
within the 45-day period.

(ROI [#10-2] at 6; PIP Summation [#10-3] at 97-101.)

The

summation states since Watson failed to successfully complete the PIP, adverse actions would be
pursued. (ROI [#10-2] at 6; PIP Summation [#10-3] at 101.) On June 18, 2013, Ms. Leal
advised Watson of her proposed removal from employment due to unacceptable performance.
(ROI [#10-2] at 6; June 18, 2013 Ltr. [#10-4] at 420-24.) The Notice of Decision of Proposed

6

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 7 of 21

Removal memorandum, provided to Watson, advised her that she would be removed from
Federal Service effective July 19, 2013, for failure to raise her performance to a successful level
during the PIP period. (ROI [#10-2] at 6; June 18, 2013 Ltr. [#10-4] at 420-24.) Watson was
given the opportunity to provide a response to the memorandum, which was reviewed by
Defendant’s Deputy Director Royce Staley. (July 18, 2019 Ltr. [#10-5] at 50-51.) Mr. Staley
agreed with Ms. Leal’s recommendation that Watson should be terminated, effective July 19,
2013. (Id.)
After Watson’s termination, she continued to apply for permanent Medical Records
Administrative Specialist positions with Defendant, but she was not referred for consideration.
(ROI [#10-2] at 5-6.) Watson repeatedly amended her complaint for purposes of the EEO
investigation after her employment was terminated in order to add additional allegations.
(Amendments [#10-2] at 256-60, 262-63, 265-66, 268-69, 271-73, 275-76.) The EEO
investigation resulted in a finding of no discrimination, and the Army provided Watson with a
copy of the findings of nondiscrimination and informed Watson of her right to request a hearing
before an Administrative Judge. (EEOC Dec. on Appeal [#1] at 25.)
Watson timely requested a hearing, which was held on January 28, 2015 and February
11, 2015. (EEOC Dec. on Appeal [#1] at 25.) The Administrative Judge issued an unfavorable
decision on March 20, 2015, and Watson appealed to the Equal Employment Opportunity
Commission (“EEOC”). (EEOC Dec. on Appeal [# 1 ] at 24-30.) The EEOC affirmed the finding
of no discrimination on June 2, 2017, and the EEOC denied Watson’s request for reconsideration
on September 21, 2017. (Id.; EEOC Decision on Request for Reconsideration [#1] at 19-21.)
Watson timely filed this lawsuit on December 20, 2017.

Then, as is noted above, Defendant

filed a motion to dismiss, which the Court converted into a summary judgment motion and

7

Case 5:17-cv-01280-OLG

Document 26 Filed 02/26/19 Page 8 of 21

permitted the parties to submit additional evidence. The record is now complete and the motion
ripe for disposition.
III. Analysis
Watson’s claims of discrimination, retaliation, and a hostile work environment under
Title VII fail as a matter of law. Watson cannot establish a prima facie case of discrimination,
harassment, or retaliation. Even if Watson could establish her prima facie case, Defendant has
proffered legitimate, nondiscriminatory reasons for terminating Watson’s employment and not
selecting her for permanent positions, and Watson has failed to rebut Defendant’s stated reason
as pretext for discrimination.
A.

Watson’s discrimination claims fail as a matter of law.
Title VII makes it unlawful for an employer to discharge an employee because of his

“race, color, religion, sex, or national origin.” 42 U.S.C. § 2000e-2(a). A plaintiff can prove
intentional discrimination through either direct or circumstantial evidence. See Heinsohn v.
Carabin & Shaw, P.C., 832 F.3d 224, 235 (5th Cir. 2016).

When a plaintiff offers only

circumstantial evidence, as here, the McDonnell Douglas framework requires the plaintiff to
establish a prima facie case of discrimination, which, if established, raises a presumption of
discrimination. See Rutherford v. Harris Cty., Tex., 197 F.3d 173, 179-80 (5th Cir. 1999) (citing
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802-04 (1973)). To establish a prima facie
case of discrimination, the plaintiff must show that (1) she is a member of a protected class, (2)
she was qualified for her position, (3) she suffered an adverse employment action, and (4) others
similarly situated were more favorably treated or that the plaintiff was replaced by someone
outside the protected class. Willis v. Coca Cola Enters., Inc., 445 F.3d 413, 420 (5th Cir. 2006).

8

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 9 of 21

A plaintiffs prima facie case creates an inference of discrimination that shifts the burden
of production to the defendant to come forward with evidence that the adverse employment
action was taken for a legitimate, nondiscriminatory reason. Rutherford, 197 F.3d at 180. This
burden is one of production, not persuasion, and can involve no assessment of credibility.
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 142 (2000). Once the employer
articulates a legitimate nondiscriminatory reason and produces competent summary judgment
evidence in support of that stated reason, the inference of discrimination disappears, and the
burden of proof shifts back to the plaintiff to demonstrate the employer’s articulated reason for
the adverse employment action was merely a pretext for discrimination. Rutherford, 197 F.3d at
180.
i.

Watson’s submissions do not establish a prima facie case of discrimination.

Under the McDonnell Douglass framework, Defendant is entitled to summary judgment
because Watson has not established a prima facie case. Watson’s Complaint contains allegations
of the following grievances underlying her discrimination claims: (1) unwarranted and abusive
verbal and written reprimands, including threats of termination or demotion; (2) unjustified
placement on a PIP; (3) denial of ability to work overtime or for compensatory time; (4)
subjection to an unfair grading system and disparate time and attendance standards; (5)
subjection to disparate work assignments; (6) denial of requests for leave and training; (7) lack of
selection for permanent employment; and (8) termination. (Compl. [#1] at

8.) Under Fifth

Circuit jurisprudence, an adverse employment action in the context of Title VII discrimination2
means “an ultimate employment decision, such as hiring, granting leave, discharging, promoting

2 The scope of adverse employment actions in the context of Title VII retaliation is
broader. See Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53 (2006) (discussed infra at
Section III.B).
9

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 10 of 21

and compensating.” Foley v. University of Houston System, 355 F.3d 333, 340 (5th Cir. 2003).
Accordingly, only Watson’s termination, denial of leave, and lack of selection for permanent
employment potentially constitute adverse employment actions for the purposes of her
discrimination claim. See Pegrum v. Honeywell, Inc., 361 F.3d 272, 282 (5th Cir. 2004).
With respect to these adverse actions, Defendant contends that Watson cannot satisfy her
prima facie burden because she cannot demonstrate that similarly situated employees outside of
her protected class received better treatment; that Watson was replaced by someone outside of
her protected class; or Watson was not offered employment in favor of a person outside of her
protected class. See McCoy v. City of Shreveport, 492 F.3d 551, 556 (5th Cir. 2007). The
undersigned agrees. To satisfy the fourth element of her prima facie case of discrimination,
Watson must show that Defendant gave preferential treatment to another employee outside the
protected class under “nearly identical circumstances.” Lee v. Kansas City S. Ry. Co., 574 F.3d
253, 260 (5th Cir. 2009). In other words, the employees being compared must have “held the
same job or responsibilities, shared the same supervisor or had their employment status
determined by the same person, and have essentially comparable violation histories.” Id. “And,
critically, the plaintiffs conduct that drew the adverse employment decision must have been
‘nearly identical’ to that of the proffered comparator who allegedly drew dissimilar employment
decisions.” Id. Watson has failed to meet this burden.
Watson has not identified any specific comparator with respect to her termination and
denial of leave allegations. In fact, there is no evidence in the record that she was replaced by
anyone after she was terminated, let alone someone outside of her protected class. Accordingly,
Watson cannot establish a prima facie case of discrimination claim based on these alleged
adverse employment actions. See Garza v. N.E. Indep. Sch. Dist., 415 Fed. App’x 520, 523 (5th

10

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 11 of 21

Cir. 2011) (affirming summary judgment on discrimination claim where plaintiff could not prove
she was replaced by someone outside of her protected class).
As to Watson’s allegations regarding Defendants’ failure to hire her for a permanent
position, the only comparator identified in the record is Mary Saenz, a Hispanic woman selected
for vacancy number 027272, which was posted in November 2012 and filled in January 2013.3
(Announcement [#10-8] at 103.) Watson argues that she was more qualified than Saenz, and
there is some evidence in the record that supports this assertion. Ms. Saenz’s resume indicates
that, although she was a Certified Coding Specialist (like Watson), she was still working towards
her Registered Health Information Administrator (RHIA) certification, which Watson already
held at the time of application. (Compare Watson Resume [#10-3] at 145—48 with Saenz Resume
[#10-3] at 149-53.)

Additionally, Watson obtained a Bachelor’s Degree in Health Record

Administration, whereas Saenz only holds an Associate’s Degree. (Id.) However, despite any
difference in qualifications, it is undisputed that by January 2013—when the hiring decision was
made—Watson had already received multiple performance counseling documents, all of which
rated Watson’s performance as failing.

(Oct. 2012 Counseling [#10-3] at 25; Nov. 2012

Counseling [#10-2] at 64; Dec. 2012 Counseling [#10-2] at 72.) As Saenz was not an internal
candidate, the Court does not have knowledge of her performance at her previous position.
Nonetheless, Watson’s documented performance issues distinguish her from Saenz, such that
Saenz was not a similarly situated comparator. Regarding the other positions at issue, Watson
does not identify a comparator. Watson has therefore failed to establish a prima facie case of

3 There is reference in some of Watson’s filings to the hiring of two Hispanic women in
January 2013, but the hiring record indicates that only Saenz was offered employment.
(Announcement [#10-8] at 103.)
11

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 12 of 21

discrimination because she has either failed to identify a comparator or she has failed to
demonstrate that her identified comparator was similar situated yet treated more favorably.
ii. Defendant has met its burden to proffer evidence of legitimate, nondiscriminatorv
reasons for its actions, vet Watson has proffered no evidence of pretext.
Moreover, even if Watson had identified a valid comparator and satisfied her prima facie
burden, Defendant would still be entitled to summary judgment because it has proffered
competent summary judgment evidence of a nondiscriminatory reason for the termination and
decision not to hire or promote Watson—her documented pattern of performance issues—and
Watson has failed to establish pretext. {See Oct. 2012 Counseling [#10-3] at 25; Senior System
Civilian Evaluation Rep. [#10-3] at 12; Nov. 2012 Counseling [#10-2] at 64; Dec. 2012
Counseling [#10-2] at 72; Feb. 2013 Counseling [#10-2] at 494; Mar. 2013 Counseling [#10-3]
at 1; PIP [#10-3] at 230-41.)
Watson does not identify any evidence that Defendant’s decision not to hire her for a
permanent position was pretext for race or national-origin discrimination. To the contrary, the
summary judgment record demonstrates that Watson was not referred for the two permanent
positions for which she applied after her termination because she was deemed objectively
ineligible for both positions. As to vacancy number 937648, the evidence establishes that each
applicant was given an Occupational Questionnaire, and only those applicants scoring 95 or
higher were referred to the selecting official. (Hernandez Decl. [#10-7] at 257; Correspondence
[#10-8] at 152.) Watson only earned a score of 91. {Id.)

Watson was deemed ineligible for

vacancy number 993790 because she did not provide Defendant with the required supporting
documentation to prove that she fell under one of the specific categories of eligibility designated
in the job posting. (Job Description [#10-7] at 290; Hernandez Decl. [#10-7] at 258-59.) This
evidence remains unrebutted. Because there is no evidence in the record to support Watson’s
12

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 13 of 21

allegation that she was not hired by Defendant due to her race or national origin, Watson’s
discrimination claims fail as a matter of law.
B.

Watson’s retaliation claim fails as a matter of law.
Title VII also forbids retaliation by employers against employees who report workplace

discrimination. Crawford v. Met. Gov’t of Nashville & Davidson Cnty., Tenn., 555 U.S. 271,
273 (2009).

The McDonnell Douglas framework applies to retaliation claims, too, and to

establish a prima facie case of Title VII retaliation, a plaintiff must show the following: (1) she
participated in an activity protected by Title VII; (2) her employer took an adverse employment
action against her; and (3) a causal connection exists between the protected activity and the
adverse employment action. McCoy, 492 F.3d at 556-57. To meet the third element, Plaintiff
“must establish that her protected activity was a but-for cause of the alleged adverse action.”
Zamora v. City Of Houston, 798 F.3d 326, 331 (5th Cir. 2015) (quoting Univ. of Texas Sw. Med.
Ctr. v. Nassar, 570 U.S. 338, 360 (2013)).
Defendant does not dispute that Watson engaged in protected activity. “Protected
activity” is defined as opposition to any practice made unlawful by Title VII, including making a
charge, testifying, assisting, or participating in any investigation, proceeding, or hearing under
Title VII. Green v. Administrators ofTulane Educ. Fund, 284 F.3d 642, 657 (5th Cir. 2002), as
amended on denial of reh’g andreh’g en banc (Apr. 26, 2002) (citing 42 U.S.C. § 2000e-3(a)).
Plaintiff engaged in protected activity by filing a formal EEO complaint of discrimination on
March 19, 2013, after she was not selected for a permanent position with Defendant and had
received a number of performance counseling documents. (EEO Compl. [#10-2] at 20-21.)
Waston also has established that Defendant took a materially adverse action against her.
In the context of Title VII retaliation, the definition of an adverse employment action is broader

13

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 14 of 21

than in the context of Title VII discrimination; an employment action is “materially adverse”
where it would “dissuade[ ] a reasonable worker from making or supporting a charge of
discrimination.” Burlington N. and Santa Fe Ry. Co. v. White, 548 U.S. 53, 68 (2006).
Again, in addition to her termination and rejection for permanent employment, Watson
alleges that her supervisors and coworkers demeaned and alienated her; that she was the subject
of unwarranted reprimands; was unjustifiably placed on a PIP; was given disparate work
assignments and specifically assigned to a “dead audit”; was evaluated based on an unfair
grading system; and was denied requested leave and training. (Compl. [#1] at U 8.) Even under
the broader standard governing retaliation claims, however, the majority of these complaints do
not constitute an adverse employment action for purposes of her retaliation claim.
For example, the Fifth Circuit has held that ostracism and rude treatment by coworkers or
supervisors is not a materially adverse action under the Burlington Northern standard. Stewart v.
Miss. Transp. Comm’n, 586 F.3d 321, 332 (5th Cir. 2009) (holding that ostracism is a minor
annoyance in the workplace and does not constitute a materially adverse employment action as a
matter of law); Aryain v. Wal-Mart Stores Tex. LP, 534 F.3d 473, 484-85 (5th Cir. 2008) (“rude
treatment” by a supervisor is insufficient as a matter of law to constitute materially adverse
employment action). Circuit law also forecloses any contention by Plaintiff that her subjection
to a less desirable audit, i.e., an adverse change in her work assignments, constituted an adverse
employment action for purposes of her retaliation claim, as she does not allege a change in her
pay, benefits, or level of responsibility as a result of the employer’s action. See Watts v. Kroger
Co., 170 F.3d 505, 512 (5th Cir. 1999) (“We have held, along with many of our sister circuits,
that employment actions are not adverse where pay, benefits, and level of responsibility remain
the same.”); see also Paul v. Elayn Hunt Corr. Ctr., 666 Fed. App’x 342, 347 (5th Cir. 2016)

14

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 15 of 21

(citing Watts, 170 F.3d at 512) (reassignments are not materially adverse unless accompanied by
other change in employee status). Nor does Defendant’s alleged denial of Watson’s request for
leave to attend a training constitute an adverse employment action, as there are no allegations
that this decision affected Watson’s right to take leave in general, only that they related to an
individual leave request for a specific date and time. Ogden v. Potter, 397 Fed. App’x 938, 939
(5th Cir. 2010) (citation omitted) (“A single denial of leave is not an adverse employment action
when it affects leave on a specific date and time, but not the employee’s amount of or right to
take leave in general, because a reasonable employee would not have found the action to be
materially adverse.”).
Additionally, the Fifth Circuit has made clear that “written warnings and unfavorable
performance reviews [such as PIPs] are not adverse employment actions where colorable
grounds exist for disciplinary action or where the employee continues to engage in protected
activity.” Jackson v. Honeywell Int’l, Inc., 601 Fed. App’x 280, 286 (5th Cir. 2015) (citing
Burlington N., 548 U.S. at 68).

Here, as in Jackson, Watson’s documented performance

deficiencies—specifically, her inability to meet established productivity and accuracy
benchmarks—provided a colorable basis for placing Watson on a PIP.

{See Oct. 2012

Counseling [#10-3] at 25; Nov. 2012 Counseling [#10-2] at 64; Dec. 2012 Counseling [#10-2] at
72; Feb. 2013 Counseling [#10-2] at 494; Mar. 2013 Counseling [#10-3] at 1.) Therefore,
Watson’s placement on a PIP cannot constitute an adverse employment action to support her
retaliation claim. See Jackson, 601 Fed. App’x at 286. Thus, the only two acts of which Watson
complains which could constitute an adverse employment action for purposes of her retaliation
claim are Watson’s termination and Defendant’s failure to hire her for a permanent position.

15

Case 5:17-cv-01280-OLG

Document 26 Filed 02/26/19 Page 16 of 21

The problem for Watson is she has proffered no evidence, aside from a temporal
relationship, connecting her EEO activity with these adverse employment decisions. Temporal
proximity can be enough to satisfy the causation element of a retaliation prima facie case, but
only where the adverse action closely follows the protected activity. Strong v. Univ. Healthcare
Sys., L.L.C., 482 F.3d 802, 808 (5th Cir. 2007) (quoting Clark Cnty. Sch. Dist. v. Breeden, 532
U.S. 268, 273 (2001) (to support prima facie case of but-for causation, temporal proximity must
be “very close”). But even if Watson could establish the causal connection element, Defendant
would still be entitled to summary judgment.
Again, the McDonnell Douglas burden-shifting framework discussed above applies
equally in unlawful retaliation cases. Long v. Eastfield Coll., 88 F.3d 300, 304-05 (5th Cir.
1996).

Under this framework, after Defendant comes forth with a legitimate, nonretaliatory

reason for its actions, the ultimate burden is on Watson to proffer sufficient evidence such that
“reasonable and fair-minded persons” could conclude that Defendant would not have subjected
Watson to an adverse employment action “but for” her EEO activity. Id. at 308. Although
temporal proximity may be enough to establish a prima facie case of retaliation, it is insufficient,
standing alone, to establish pretext and defeat a motion for summary judgment as to the
requirement of but-for causation after Defendant has proffered evidence of its legitimate reason.
Hernandez v. Yellow Transp., Inc., 670 F.3d 644, 658 (5th Cir. 2012); Washburn v. Harvey, 504
F.3d 505, 511 (5th Cir. 2007). Because Watson has not directed the Court to any other evidence
to support her allegations of retaliation or that Defendant’s proffered reasons are pretextual, her
Title VII retaliation claim also fails as a matter of law.

16

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 17 of 21

C.

Watson’s harassment claim fails as a matter of law.
Watson’s claim of race-based harassment also fails as a matter of law. In order to prevail

on her claim of a hostile work environment, Watson must prove: (1) she belongs to a protected
group; (2) she was subjected to unwelcome harassment; (3) the harassment complained of was
based on race; (4) the harassment complained of affected a term, condition, or privilege of
employment; (5) the employer knew or should have known of the harassment in question and
failed to take prompt remedial action. Ramsey v. Henderson, 286 F.3d 264, 268 (5th Cir. 2002).
For harassment to affect a term, condition, or privilege of employment, it must be “sufficiently
severe or pervasive to alter the conditions of [the victim’s] employment and create an abusive
working environment.” Meritor Savings Bank, FSB v. Vinson, All U.S. 57, 65 (1986) (internal
quotation omitted). In determining whether a workplace constitutes a hostile work environment,
courts must consider the following circumstances: “the frequency of the discriminatory conduct;
its severity; whether it is physically threatening or humiliating, or a mere offensive utterance;
and whether it unreasonably interferes with an employee’s work performance.”

Harris v.

Forklift, 214 F.3d 615, 625 (5th Cir. 2000). To be actionable, the work environment must be
“both objectively and subjectively offensive, one that a reasonable person would find hostile or
abusive, and one that the victim in fact did perceive to be so.” Faragher v. City of Boca Raton,
524 U.S. 775, 787 (1998) (citation omitted).
Watson has failed to establish a prima facie case of a hostile work environment because
she has failed to produce sufficient evidence from which a reasonable juror could conclude that
the alleged harassment was based on her race. Watson expressly states in her Complaint that she
is not alleging she was ever subjected to any racially tainted epithets or racial perjoratives.
(Compl. [#1] at 169.) And her Complaint only includes a few instances that arguably implicate

17

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 18 of 21

race at all: (1) the allegation that Watson’s supervisor, Ms. Leal, told her to stop “chit chatting”
with Ms. Hollis, a black female coworker, where Watson was permitted to talk to all other
employees who were not black; (2) the allegation that Watson did not receive the same training
upon hiring that two Hispanic colleagues enjoyed; and (3) the allegation that Watson was not
permitted to work overtime or compensatory time as were her non-black coworkers. (Compl.
[#1] at 7, 168, 169, 177.) Yet these allegations of discriminatory animus are unsupported by any
competent evidence and therefore represent only Watson’s subjective beliefs that she was the
victim of race-based harassment. Watson does not allege—and there is no evidence in the
record—that Ms. Leal or anyone else said anything with a racial epithet or perjorative. Instead,
Watson has merely identified certain employment acts and has offered her belief that the reason
they occured was her race.
For example, Watson provides no evidence to support her contention that her race was
the reason she was not permitted to work overtime or compensatory time. The summary
judgment record contains correspondence between Watson and Ms. Leal from November 2012—
the time Watson was denied the ability to work overtime and compensatory time—in which Ms.
Leal explained to Watson that compensatory time is only offered to those auditors who are
meeting productivity standards.

(Correspondence [#10-3] at 195-200.) At the time, it is

undisputed that Watson had already received counseling for her substandard productivity. (Oct.
2012 Counseling [#10-3] at 25.) Similar evidence exists with respect to Watson’s request for an
alternate work schedule; Ms. Leal’s communciations with Watson in June 2013 explained that
she was not eligible for an alternate schedule due to her placement under a PIP at the time.
(Correspondence [#10-3] at 200.)

18

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 19 of 21

Watson’s subjective belief that her race, and not her productivity, was the real reason for
the denial of her ability to work overtime and compensatory time or any other employer action is
insufficient to create a fact issue without any evidence from which a reasonable factfinder could
infer that Watson’s perception was objectively reasonable. See Frank v. Xerox Corp., 347 F.3d
130, 138 (5th Cir. 2003) (affirming summary judgment where subjective perception of racebased harassment was not objectively reasonable); Cavalier v. Clearlake Rehab. Hosp. Inc., No.
CIV. A. H-07-678, 2008 WL 2047997, at *4 (S.D. Tex. May 12, 2008), aff'd, 306 Fed. App’x
104 (5th Cir. 2009) (granting summary judgment on claim of hostile work environment where
majority of complained-of incidents did not implicate racial animus through words or conduct
and finding no objectively reasonable basis to infer discriminatory intent). In summary, Watson
does not allege that she was the victim of any conduct by Defendant that expressly implicated
her race, and she has produced no evidence from which a factfinder could reasonably infer that
the complained-of conduct was motivated by her race.

Accordingly, her hostile work

enviroment claim fails as a matter of law. See Enclarde v. Louisiana's (LaDotd), No. CIV. A.
13-56-SCR, 2014 WL 545820, at *8 (M.D. La. Feb. 11, 2014) (granting summary judgment to
employer on hostile work environment claim where plaintiff failed to present any competent
summary judgment evidence “from which a reasonable trier of fact could infer that the actions
the plaintiff complains about were motivated by race”).
Furthermore, even if Watson could do so, the conduct she alleges does not rise to the
level of severity and pervasiveness required to constitute an objectively hostile work
environment as a matter of law. Watson’s conclusory assertions that the employment issues she
identifies were pervasive and due to racial animus is not sufficient to satisfy this standard. See
Ramsey, 286 F.3d at 269 (affirming dismissal of hostile work environment claim where

19

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 20 of 21

plaintiffs vague assertions of ongoing racial animus were unsubantiated by any concrete
examples of racial discrimination in the workplace). Even in instances where the challenged
behavior is explicitly racist, the Fifth Circuit has set a high bar of objectively offensive behaivor
that must be established in order to prove a hostile working environment. See, eg., White v.
Gov’t Employees Ins. Co., 457 Fed. App’x 374, 380-82 (5th Cir. 2012) (affirming summary
judgment for employer where client was referred to as a “nigger” in plaintiffs presence and
references were made to the “ghetto” or a “FEMA trailer” because none of these comments were
severe or frequent enough to objectively interfere with work performance); cf. E.E.O.C. v.
WC&M Enterprises, Inc., 496 F.3d 393, 400-01 (5th Cir. 2007) (reversing summary judgment
where evidence showed plaintiff was subjected to verbal harassment on regular basis for a full
year in which he was contantly called “Taliban,” referred to as an “Arab,” mocked for his diet
and prayer rituals, and accused of involvement in terrorist acts). As such, Watson’s hostile work
environment claim fails as a matter of law.
IV. Conclusion and Recommendation
In summary, having considered Defendant’s motion, the various responses, replies, and
supplements thereto, and the summary judgment record, the undersigned recommends that
Defendant’s Motion to Dismiss, which the Court has converted into a Motion for Summary
Judgment [#10], be GRANTED.
V. Instructions for Service and Notice of Right to Obiect/Appeal
The United States District Clerk shall serve a copy of this report and recommendation on
all parties by either (1) electronic transmittal to all parties represented by attorneys registered as
a “filing user” with the clerk of court, or (2) by mailing a copy to those not registered by certified
mail, return receipt requested. Written objections to this report and recommendation must be

20

Case 5:17-cv-01280-OLG Document 26 Filed 02/26/19 Page 21 of 21

filed within fourteen (14) days after being served with a copy of same, unless this time period is
modified by the district court. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). The party shall file
the objections with the clerk of the court and serve the objections on all other parties. A party
filing objections must specifically identify those findings, conclusions or recommendations to
which objections are being made and the basis for such objections; the district court need not
consider frivolous, conclusive or general objections. A party’s failure to file written objections
to the proposed findings, conclusions and recommendations contained in this report shall bar the
party from a de novo determination by the district court. Thomas v. Am, 474 U.S. 140, 149-52
(1985); Acuna v. Brown & Root, Inc., 200 F.3d 335, 340 (5th Cir. 2000). Additionally, failure to
file timely written objections to the proposed findings, conclusions and recommendations
contained in this report and recommendation shall bar the aggrieved party, except upon grounds
of plain error, from attacking on appeal the unobjected-to proposed factual findings and legal
conclusions accepted by the district court. Douglass v. UnitedServs. Auto. Ass’n, 79 F.3d 1415,
1428-29 (5th Cir. 1996) (en banc).
SIGNED this 26th day of February, 2019.

ELIZABETF
UNITED ST.

21

s

' ("BETSY") CHESTNEY
'ES MAGISTRATE JUDGE

Case 5:17-cv-01280-OLG Document 37 Filed 05/09/19 Page 1 of 4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
LISA L. WATSON,

v.
MARK ESPER, SECRETARY,
DEPARTMENT OF THE ARMY,
Defendant.

)
)
)
)
)
)
)
)
)

MAY 0 9 2019
iURT
CLERK, U S. DISTRICT
TEXAS
WESTERN DISTglCTj
BY.
DEPI&TY CLERK

)

Plaintiff,

FILED

No. 5:17-CV-01280-OLG

ORDER
On this date, the Court considered Plaintiffs “Supplemental Motion to Amend Judgment”
(docket no. 36) (the “Motion”). Having reviewed the record and Plaintiffs Motion, the Court
concludes that the Motion should be denied.
BACKGROUND AND DISCUSSION
On June 12, 2018, Defendant filed a Motion to Dismiss (docket no. 10), which was
ultimately converted into a Motion for Summary Judgement due to the large number of exhibits
and evidence attached to Defendant’s motion and Plaintiffs response. See docket no. 20; Fed. R.
Civ. P. 12(d). The parties were given an opportunity to submit additional evidence, and
supplemental summary judgment briefing and evidence was submitted by each party. See docket
nos. 20,21 & 22.
On February 26, 2019, United States Magistrate Judge Elizabeth S. Chestney issued a 21page Report and Recommendation addressing the merits of Defendant’s Motion for Summary
Judgment pursuant to 28 U.S.C. § 636. See docket no. 26 (the “R & R”). Specifically, Judge
Chestney’s R & R recommended that Defendant’s Motion for Summary Judgment be granted. See

Case 5:17-cv-01280-OLG Document 37 Filed 05/09/19 Page 2 of 4

id. On March 12, 2019, Plaintiff filed 23 pages of objections to Judge Chestney’s R & R. See
docket no. 28.
In light of Plaintiffs objections, this Court conducted an independent review of the entire
record and the applicable law and a de novo review of the matters raised in Plaintiffs objections.
See docket no. 29; 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). On March 18, 2019, the Court
issued an Order adopting Judge Chestney’s R & R and the recommendations contained therein.
See docket no. 29. Accordingly, Defendant’s Motion for Summary Judgment was granted and
judgment was entered in favor of Defendant. See id.; docket no. 30.
On April 1,2019, Plaintiff filed a motion seeking a new trial and other miscellaneous relief.
See docket no. 31. Specifically, Plaintiff requested a new trial pursuant to Fed. R. Civ. P. 59(e) on
the basis of newly-discovered evidence, specifically, nine recordings that Plaintiff had not
submitted with her prior evidence that was considered by this Court and Judge Chestney on
Defendant’s Motion for Summary Judgment. See id. On April 3,2019, Defendant filed a response
to Plaintiffs initial Rule 59 motion. See docket no. 32. On April 5,2019 and April 8,2019, Plaintiff
filed replies in support of the motion, and with the replies, attached a USB drive containing the
nine recordings referenced in the motion. See docket nos. 33 & 34. The Court considered the
contents of the attached recordings, and on April 22, 2019, the Court issued an Order denying
Plaintiffs request for a new trial and/or amended judgment. See docket no. 35.
On April 30,2019, Plaintiff filed another “Supplemental Motion to Amend Judgment.” See
docket no. 36. Plaintiffs new Motion generally rehashes arguments that have already been rejected
in this Court’s prior orders and/or Judge Chestney’s R & R. In the new Motion, Plaintiff repeatedly
contends that she is entitled to a jury trial on her claims, see id. at p. 2, notwithstanding the Court’s
prior conclusions regarding the merits of those claims and the contents of Plaintiff s recordings.

2

Case 5:17-cv-01280-OLG Document 37 Filed 05/09/19 Page 3 of 4

Plaintiffs position ignores that “[o]ne of the principal purposes of the summary judgment rule is
to isolate and dispose of factually unsupported claims or defenses.” Celotex Corp. v. Catrett, All
U.S. 317, 323-24 (1986). The Court has explained why Plaintiffs claims are not viable based on
the evidence in the record, see docket nos. 26, 29 & 35, and there remains no triable issue for
which a jury trial is appropriate.
Moreover, to the extent Plaintiffs new Motion contends that she was not able to provide
the recordings at the summary judgment stage (which in itself is not clear), see id. at p. 1, any
purported “prejudice” has been eliminated by the fact that the Court considered the contents of the
recordings when addressing Plaintiffs prior Rule 59 motion. Indeed, Plaintiffs allegedly “new”
evidence was specifically examined by the Court,1 and the Court found that, if anything, the
evidence in the recordings actually supported the Court’s entry of judgment for Defendant. See
docket no. 35 p. 4. Finally, Plaintiff is incorrect to assert that the Court did not consider whether
the prior judgment should be “amended” or “altered” when it addressed Plaintiff s prior Rule 59
motion for a “new trial.” See docket no. 36 p. 3. Importantly, the Court’s analysis and explanation
as to why Plaintiff is not entitled to a “new trial” also supports the conclusion that there is no basis
to alter or amend the Court’s prior judgment. See docket no. 35.
The Court again understands that Plaintiff has experienced difficulties over the past few
years. See, e.g., docket no. 26 pp. 1-2; docket no. 36 p. 1. However, the Court must evaluate the
merits of Plaintiff s claims in light of the record evidence, and for the reasons discussed in Judge

l

Although it was not apparent that Plaintiffs recordings were unavailable at the summary
judgment stage, the Court assumed that the recordings constituted “newly discovered” evidence
for the purposes of Fed. R. Civ. P. 59. See docket no. 35 pp. 3-4. The Court did so because Plaintiff
is proceeding pro se, and as a result, the Court listened to the more than 2.5 hours of recordings
provided by Plaintiff when considering Plaintiffs prior motion. See id.

3

Case 5:17-cv-01280-OLG Document 37 Filed 05/09/19 Page 4 of 4

Chestney’s R & R and this Court’s prior orders, it is apparent that Plaintiffs claims fail as a matter
of law. Accordingly, Plaintiffs newest Motion must also be denied.
CONCLUSION AND ORDER
For the reasons set forth above, Plaintiffs “Supplemental Motion to Amend Judgment”
(docket no. 36) is DENIED.
It if further ORDERED that—in light of the fact that (i) judgment has been entered in this
case (see docket no. 30), (ii) the case has been closed (see docket nos. 29, 30 & 35), and (iii)
Plaintiffs successive Rule 59 motions have been denied (see docket nos. 35 & 37)—the Clerk
shall terminate Plaintiffs electronic filing privileges in this litigation.
IT IS SO ORDERED.
SIGNED this

1

day of May, 2019.

£V\a/\\A

ORLANDO L. GARCIA
CHIEF UNITED STATES DISTRICT JUDGE

4

Case 5:17-cv-01280-OLG Document 29 Filed 03/18/19 Page 1 of 3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
LISA L. WATSON,
Plaintiff,
v.

MARK ESPER, SECRETARY,
DEPARTMENT OF THE ARMY,
Defendant.

)
)
)
)
)
)
)

FILED
.

MAR 1 8 2.013

CLERK, U.S. DISTRICI/COURT
WESTERN DISTa0b>OF TEXAS
BY.
DEPUTY CLERK

No. 5:17-CV-01280-OLG

)
)
)

ORDER
On this date, the Court considered Defendant’s Motion to Dismiss (docket no. 10), which
was previously converted into a Motion for Summary Judgement due to the large number of
exhibits and evidence attached to Defendant’s motion and Plaintiffs response. See docket no. 20;
Fed. R. Civ. P. 12(d). Pursuant to 28 U.S.C. § 636, United States Magistrate Judge Elizabeth S.
Chestney issued a Report and Recommendation with respect to Defendant’s Motion for Summary
Judgment. See docket no. 26 (the “R & R”). Specifically, Judge Chestney’s February 26, 2019
R & R recommended that the Government’s Motion for Summary Judgment be granted. On
March 12, 2019, Plaintiff filed objections to Judge Farrer’s R & R. See docket no. 28.
When a party objects to a magistrate judge’s recommendation, the Court must make a de
novo determination as to those portions of the recommendation to which an objection is made.
Kreimerman v, Casa Veerkamp, S.A. de C.V, 22 F.3d 634, 646 (5th Cir. 1994); 28 U.S.C.
§ 636(b)(1); Fed. R. Civ. P. 72(b).
The Court has conducted an independent review of the entire record and the applicable law
and a de novo review of the matters raised in Plaintiffs objections. See 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 72(b). After reviewing the R & R (docket no. 26), Plaintiffs objections (docket no.

Case 5:17-cv-01280-OLG Document 29 Filed 03/18/19 Page 2 of 3

28), the voluminous record of supporting materials (docket nos. 10, 13, 18 & 22), the parties’
briefing (docket nos. 10, 11, 14,21 & 22), and the applicable law, the Court finds that Magistrate
Judge Chestney’s R & R correctly articulates and applies the facts and law.
The majority of Plaintiff s objections largely rehash substantive arguments that were made
in the prior briefing to Judge Chestney.1 Compare docket no. 28 pp. 4-11 with docket no. 22 pp.
3-20. Judge Chestney’s R & R correctly addressed those arguments and explained in detail why
Plaintiffs claims for discrimination, retaliation and hostile work environment each fail as a matter
of law. See docket no. 26. The Court has conducted a de novo review of the record and the
underlying law, and the Court has arrived at the same conclusions. Accordingly, the Court adopts
Judge Chestney s findings and conclusions of law with respect to each claim.
The Court notes that Plaintiffs objections also contain details regarding Plaintiffs
difficulties over the past several years, and the Court does not wish to minimize those difficulties.
See docket no. 26 pp. 1 -2. However, the Court’s sole duty is to address the legal merits of Plaintiff s
claims in light of the evidence in the record, and having done so in this case, the Court agrees that
Plaintiffs claims fail as a matter of law. According, Defendant is entitled to summary judgment.

In addition to the substantive arguments, Plaintiffs objections also state that she has had trouble
obtaining certain recordings from her former attorneys. See docket no. 28 pp. 3-4. However, the
record indicates that Plaintiff was afforded an opportunity to collect and submit relevant evidence,
see docket no. 20, and Plaintiff submitted hundreds of pages of evidence for the Court’s
consideration. See, e.g., docket nos. 13 & 22. Importantly, although Plaintiff contends that she has
been prejudiced by her inability to obtain the actual recordings of her communications with her
former supervisor, it appears Plaintiff was able to submit transcripts of those recordings into the
record, and those transcripts were considered both by Judge Chestney and this Court. See docket
no. 26 p. 1; docket no. 13 pp. 6-19. Accordingly, Plaintiff s inability to obtain the actual recordings
is not a basis for continuing the litigation.

2

Case 5:17-cv-01280-OLG Document 29 Filed 03/18/19 Page 3 of 3

For the reasons set forth above and in the R & R, the Court concludes that Plaintiffs
objections should be overruled. Accordingly, it is therefore ORDERED that Magistrate Judge
Chestney’s Report and Recommendation (docket no. 26) is ADOPTED in full, and, for the reasons
set forth above and in Judge Chestney’s R & R, Defendant’s Motion for Summary Judgment
(docket no. 10) is GRANTED.
IT IS SO ORDERED
SIGNED this

a

day of March, 2019.

ORLANDO L. GARCIA
CHIEF UNITED STATES DISTRICT JUDGE

3

Case: 19-50450

Document: 00515272066

Page: 1

Date Filed: 01/14/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-50450

LISA L. WATSON,
Plaintiff - Appellant
v.
MARK ESPER, Secretary, Department of the Army,
Defendant - Appellee

Appeal from the United States District Court
for the Western District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion December 4, 2019, 5 Cir.,

F.3d

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM:
^\/)

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (FED. R. APP.
P. and 5th ClR. R. 35), the Petition for Rehearing En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court

Case: 19-50450

Document: 00515272066

Page: 2

Date Filed: 01/14/2020

and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (FED. R. APP. P. and 5™ ClR. R.
35), the Petition for Rehearing En Banc is DENIED.

ENTERED FOR THE COURT:
/

UNITED STATES CIRCUIT JUDGE

!

